             OFFICE OF
             INSPECTOR
             GENERAL
             UNITED STATES POSTAL SERVICE




         International Terminal Dues
                 White Paper




                                            March 7, 2014


Prepared by: Office of Audit
             Report Number: MS-WP-14-002
March 7, 2014

MEMORANDUM FOR:             GISELLE E. VALERA
                            VICE PRESIDENT & MANAGING DIRECTOR,
                            GLOBAL BUSINESS




FROM:                       Janet M. Sorensen
                            Deputy Assistant Inspector General
                             for Revenue and Business

SUBJECT:                    International Terminal Dues
                            (Report Number MS-WP-14-002)

Attached are the results of our self-initiated review of International Terminal Dues rates
and their impact on the U.S. Postal Service (Project Number 13RG034MS000). In this
paper, we discuss the impact on the Postal Service of terminal dues rates set by the
Universal Postal Union (UPU) and the effects of changes to terminal dues made at the
September 2012 UPU Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Joshua Bartzen, acting
director, Sales & Marketing, or me at 703-248-2100.

Thank you in advance for your time and consideration.

Attachment

cc: Corporate Audit and Response Management
International Terminal Dues                                                                                 MS-WP-14-002




                                  International Terminal Dues
                                            Executive Summary
The U.S. Postal Service is the largest postal operator in the world and exchanges mail
services with over 200 countries and territories. The Postal Service earns revenue when
domestic customers send mail to foreign destinations and when foreign postal operators
deliver mail from their countries to the U.S. In fiscal year (FY) 2013, the Postal Service
earned over $3 billion from dispatching and delivering about 902 million international
mailpieces. Each postal operator that receives mail1 has the right to collect payment
from the originating post to compensate for costs incurred to deliver that mail; these
charges are called terminal dues.

The Universal Postal Union (UPU) oversees the exchange of mail between foreign
countries. The UPU is an agency of the United Nations whose primary functions include
setting policy and establishing rates every 4 years for mail products. These rates can
vary by country classification as determined by the member countries at the UPU
Congress. In addition, terminal dues rates are based on whether a country is a target
country or a transition2 country. For example, presently the U.S. and Germany are
target countries and China and India are transition countries. The U.S. receives the
lowest terminal dues rates among the target countries; that is, it receives the lowest
fees from target countries sending mail to it. While China and India have a significant
impact on the global economy, they are still considered transition countries and pay the
lowest terminal dues rates, especially for lightweight mailpieces.

To offset the impact of low terminal dues rates, the Postal Service can negotiate
separate (bilateral) agreements with countries to exchange international mail at higher
rates. Currently, the Postal Service has many different types of bilateral agreements
with multiple countries, ranging from comprehensive (multiple mail products) to
product-specific.

Even with these international bilateral agreements, it is difficult for the Postal Service
to cover the costs of delivering inbound market-dominant international mail subject to
terminal dues.3 For example, the loss for Inbound Single-Piece Letter Post was $79
million in FY 2013; however, outbound market-dominant international products made a
positive contribution to the Postal Service's institutional costs (after U.S. domestic
costs). In addition to the low terminal dues rates, there are several other factors that
contribute to the losses for inbound international market-dominant products such as the
overall decrease in letter volume and increases in cost per piece.
1
  International mail subject to payment for receipt from a foreign post (terminal dues) is defined as letter post that is a
letter, flat, or parcel under 4 pounds, or 2 kilograms.
2
  Not all countries are at the same stage of development and there are significant variations in their mail volumes,
postal rates, and cost absorption. The goal of the target system is to progressively incorporate all countries into a
target system that already applies a more cost-based terminal dues system.
3
  International market-dominant products subject to terminal dues contain one outbound product and one inbound
product: Outbound First-Class Mail International and Inbound International Single-Piece Letter Post.
                                                             i
International Terminal Dues                                                                             MS-WP-14-002




In an effort to make terminal dues more equitable and cost-effective for all countries,
UPU member countries agreed to make significant changes at the UPU Congress in
September 2012. Specifically:

   Inbound terminal dues rates for the U.S. will increase by an average of 13 percent4
    each year from 2014 through 2017 due to the low U.S. inbound terminal dues rates
    in prior years. Other target countries, such as Germany and France — that already
    had the highest inbound terminal dues rate — will be subject to a 3 percent cap
    increase each year. Inbound terminal dues rates for new target countries and
    transition countries will increase by 6 percent5 and 2.8 percent each year,
    respectively.

   The increase in foreign countries’ inbound terminal dues rates also means the U.S.
    will pay higher terminal dues for its outbound mail to target countries, averaging a 3
    percent increase each year from 2014 through 2017.

The Postal Service will enjoy a $              net gain over the next 4 years as a result of
these changes in terminal dues rates. Therefore, the Postal Service should move closer
to covering the cost of inbound international mail by 2017 and continue to contribute to
institutional costs for outbound international mail.




4
  The 13 percent increase in terminal dues is calculated based on per kilogram and per item rates and items per
kilogram for mail flow between target countries.
5
  The 6 percent increase is for terminal dues cap rates for mail flow to, from, and between new target countries.
                                                            ii
International Terminal Dues                                                                                        MS-WP-14-002




                                            TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Prior Terminal Dues System (2010 – 2013) .................................................................... 4

Current and Future Terminal Dues System (2014 – 2017).............................................. 5

Conclusion ...................................................................................................................... 7

Appendix A: Country Classification List ........................................................................... 8
International Terminal Dues                                                          MS-WP-14-002




Introduction

The U.S. Postal Service is the largest postal operator in the world and exchanges mail
services with over 200 countries and territories. The Postal Service earns revenue when
domestic customers send mail to foreign destinations and when foreign postal operators
deliver mail from their countries to the U.S. The Postal Service earned over $3 billion in
revenue in fiscal year (FY) 2013 from dispatching and delivering about 902 million
international mailpieces. The Universal Postal Union (UPU) oversees the exchange of
mail between foreign countries. Under the acts of the UPU, each postal operator that
receives mail has the right to collect payment from the originating post to compensate
for costs incurred to deliver that mail; these charges are called terminal dues.

                                              There are five bodies within the UPU: the
    THE UPU AND TERMINAL DUES
                                              Congress, the Council of Administration, the
 The UPU is a body of the United Nations      Postal Operations Council, the Consultative
 and is the international organization that   Committee, and the International Bureau. Each
 oversees the exchange of mail between        has different functions and responsibilities. For
 countries. Its primary functions include     example, the UPU Congress primarily focuses
 setting policy and establishing rates for    on broad policy issues. The Council of
 international mail products between          Administration has the power to approve
 postal operators. These rates, known as      proposals from the Postal Operations Council.
 terminal dues, are intended to               The Postal Operations Council deals with the
 compensate the destination country for       operational, economic, and commercial aspects
 the transportation, handling, and delivery   of international postal service.
 costs of letter post items from abroad.
                                       Without the UPU, each postal operator would
have to negotiate separate agreements with every other foreign postal operator with
which it wanted to exchange international mail. More importantly, without the UPU,
countries could not be guaranteed mail service to and from nearly every signatory
nation around the globe.

The terminal dues system was introduced in the 1969 UPU Congress in Tokyo as a
simple way to compensate developing/transition countries for imbalances of mail
volume. There has been a significant amount of work aimed at improving the system by
moving toward covering the actual costs of each country’s individual mail flow.

Terminal dues have policy and regulatory aspects, which the Council of Administration
oversees, and operational and financial aspects, which the Postal Operations Council
handles. As a result, these two bodies jointly prepared a single UPU congressional
proposal in 2012. To become effective, a proposal must be approved by a majority of

                                                  1
International Terminal Dues                                                                             MS-WP-14-002



the member countries represented at Congress and having the right to vote.6 Each
member country is entitled to one vote.7

The UPU member countries establish terminal dues rates based on a country’s
designation as a target or a transition country. Countries are classified into five major
groups8 with Group 1.1 consisting of the most developed countries. Further, the terminal
dues rate a country charges can vary based on which countries it exchanges mail with.
For example, the U.S. charged different terminal dues rates for inbound letter post sent
from Germany (target country), Singapore (new target country), and China (transition
country) in 2013.

Currently, there are 41 target countries, 36 new target countries, and 144 transition
countries.9 The UPU has established detailed and complex criteria to determine
whether a country is a target or a transition country. One key factor in country
classification is the Gross National Income (GNI) per capita.10 Table 1 ranks the
10 countries with the highest GNIs in the world; however, four are classified as
transition countries due to their low GNI per capita. Generally, transition countries are
subject to lower terminal dues rates for lightweight mail items than target countries. See
Appendix A for a detailed listing of target and transition countries.

                                       Table 1: GNI in U.S. Dollars


                                   2012              2012                             Current Country
                 Country     GNI (in billions) GNI per capita ($)                      Classification
          U.S.                       $16,430            $52,340                       Target
          China                        $7,731            $5,720                       Transition
          Japan                        $6,107           $47,880                       Target
          Germany                      $3,625           $44,260                       Target
          France                       $2,743           $41,750                       Target
          United Kingdom               $2,445           $38,670                       Target
          Brazil                       $2,311           $11,630                       Transition
          Italy                        $2,063           $33,860                       Target
          India                        $1,955            $1,580                       Transition
          Russian Federation           $1,823           $12,700                       Transition
         Source: The World Bank and UPU documentation.


Additionally, the UPU has established floor and cap rates for terminal dues for mail
exchanged between target countries. Floor rates apply to countries with low domestic
postage rates and cap rates limit countries with high domestic postage rates to
6
  UPU Act, Article 21, Conditions of Approval of Proposals.
7
  UPU Act, Article 101.3, Organization and Convening of Congresses and Extraordinary Congresses.
8
  Group 1.1 contains countries that joined the target system prior to 2010, also known as target countries; Groups 1.2
and 2 contain countries that joined the target system in 2010 and 2012, also known as new target countries; and
Groups 3, 4, and 5 contain transition countries.
9
  A country may contain multiple territories, which may be subject to different classification and terminal dues.
10
   The GNI per capita is an indicator of the average annual income available to an inhabitant of a country.

                                                          2
International Terminal Dues                                                                             MS-WP-14-002



moderate the impact on terminal dues. For example, among most of the target
countries,11 the U.S. had the lowest rates of both 2012 domestic postage and 2013
terminal dues. Other countries constrained by the cap rates include Belgium and
Denmark. Without the floor and cap mechanism, terminal dues rates would be less
equitable.

Although the Postal Service, working with the Department of State (DOS) and the
Postal Regulatory Commission (PRC), has one of the 192 votes in UPU actions, it also
currently has a leadership role in the Letter Post Remuneration Group, which manages
the operational and financial dimensions of the terminal dues system development
process.

The Postal Accountability and Enhancement Act (PAEA) of 200612 identified U.S.
agencies' roles with regard to international mail. Specifically, the DOS has the
responsibility to formulate, coordinate, and oversee foreign policy related to international
postal and delivery services. The PRC has the responsibility to provide advice on
international agreements governing rates and classifications for market-dominant
products and their consistency with statutory criteria for rate setting. The PAEA also
requires the PRC to consult with the DOS on international postal policies.13

The Postal Service can increase revenue by seeking opportunities for new international
competitive products. Unlike market-dominant products, which are restricted to UPU
rates and often do not cover costs, competitive products must be priced to cover at least
their attributable costs. The Postal Service may also enter into agreements with
countries to govern the exchange of international products and services. Rates set forth
in these agreements often exceed UPU rates because they provide additional services
not mandated under UPU rules. Therefore, these agreements can increase revenue
and also foster collaboration between two postal operators to provide additional
products and services to meet customers’ needs.

Even with these international bilateral agreements, it is difficult for the Postal Service to
cover the cost of delivering inbound market-dominant international mail subject to
terminal dues.14 For example, the loss for inbound market-dominant international mail
products was $79 million; however, outbound market-dominant international products
made a positive contribution to institutional costs. In addition to the low terminal dues
rates, there are several other factors that contribute to losses of inbound international
market-dominant products, such as the overall decrease in letter volume and increases
in mail processing costs (see Table 2).


11
   In 2013 terminal dues were based on the 2012 domestic postage rate for a 20 gram letter. Falkland and Pitcairn
Islands were the only two target countries that had lower domestic postage rates than the U.S. in 2012.
12
   Public Law 109-435, December 20, 2006.
13
   To perform this responsibility, the DOS formed an advisory committee on international postal and delivery services.
Committee members include representatives from the Postal Service, various government agencies, and companies
in the mailing industry.
14
   International market dominant products subject to terminal dues contain one outbound product and one inbound
product: Outbound First-Class Mail International and Inbound International Single-Piece Letter Post.

                                                         3
International Terminal Dues                                                                            MS-WP-14-002



                Table 2: Inbound and Outbound Market-Dominant Products
                           Revenue/Loss Comparison in Millions

        Market-Dominant Products
         Subject to Terminal Dues                            FY 2013      FY 2012        FY 2011        FY 2010
Inbound International Single-Piece Letter Post                  $(79)        $(65)          $(36)           $(53)
Outbound First-Class Mail International                          136          227             209            327
Net Results for lnbound and Outbound                             $57         $162            $173           $274
Source: Postal Service Cost and Revenue Analysis reports.


Prior Terminal Dues System (2010–2013)
                                                                               HOW ARE TERMINAL DUES
                                                                                   DETERMINED?
The UPU’s past formula for setting international
terminal dues hurt the financial performance of U.S.                          Terminal dues are determined by
international inbound mail. The UPU based its prior                           the UPU member countries,
formula on the domestic postage rate for a 20 gram                            based on how a country is
letter, a product for which the U.S. has the lowest                           categorized. Country categories
postage rates among all target countries. As a result,                        range from “transition” to “target”
the UPU-established inbound mail rates do not allow                           depending on factors such as
some international products to cover their costs as                           GNI per capita and domestic
required. In addition, the UPU has established floor                          postal rate. The U.S. is a target
and cap rates to moderate the impact on terminal                              country and has the lowest rates
dues. See Table 3 for a terminal dues rates                                   among all target countries. China
comparison between target countries.                                          and India are examples of
                                                                              transition countries, and pay the
                                                                              lowest terminal dues rates.




                             Table 3: 2013 Terminal Dues Comparison

 Country 2013 Terminal Dues Per Item                                    Floor or Cap
 Belgium                       $
 Canada                        $
 Denmark                       $
 Germany                       $
 U.S.                   $
Source: UPU document and U.S. Postal Service Office of inspector General (OIG) calculation.
Note: The terminal dues in this chart are calculated based on items per kilogram of 12.16 and the currency
exchange rate as of December 30, 2013.

Terminal dues are based on a country’s classification as a target country or a transition
country; however, this system creates some inequities. For example, the U.S. and
Germany are target countries and China and India are transition countries. The U.S.
has the lowest terminal dues rates among the target countries, which means it was the
least expensive country for foreign target countries to mail to. In contrast, China and


                                                         4
International Terminal Dues                                                                             MS-WP-14-002



India, which have a significant impact on the global economy, are still considered
transition countries, and subject to the lowest terminal dues rates, especially for
lightweight mailpieces.

Current and Future Terminal Dues System (2014–2017)

       THE 2012 DOHA CONGRESS
                                               At the September 2012 UPU Congress, member
                                               countries established new business rules for a new
     At its quadrennial Congress in            formula to produce terminal dues that are closer to
     Doha, Qatar in 2012, the UPU              actual costs.
     approved a new formula for setting
     rates for international products and      Rates will increase for both target and transition
     services that are closer to actual        system countries through 2017 as the result of the
     costs. These new rates began to           revised formula. Specifically, the new formula
     be phased in starting in                  included domestic postage rates for both 20 gram
     January 2014 and will be finalized        and 175 gram letters. While the U.S. still has the
     by 2017. For the U.S., this 4-year        lowest domestic postage rate for a 20 gram letter
     period will result in an increase of      among all the target countries, the domestic postage
     over 50 percent for international         rate for a 175 gram letter is relatively high.
     inbound letter post rates from
                                               Therefore, on balance, the revised formula benefits
     target countries.
                                               the U.S. See Table 4 for a terminal dues rates
                                               comparison among target countries.

                         Table 4: 2014 Terminal Dues Rates Comparison

                       Country              2014 Terminal Dues Per Item Cap or Floor
                   Belgium                                        $
                   Canada                                         $
                   Denmark                                        $
                   Germany                                        $
                   U.S.                                           $
                   Source: UPU documentation and OIG calculation.
                   Note: The terminal dues in this chart are calculated based on items per kilogram of 12.16 and
                   the currency exchange rate as of December 30, 2013.

The percentage of rate increase varies by country. For example, inbound terminal dues
rates for the U.S. will increase by an average of 13 percent15 each year from 2014
through 2017, due to the low U.S inbound terminal dues rates in prior years. Other
target countries, such as Germany and France, which already have the highest inbound
terminal dues rate, will be subject to a 3 percent cap increase each year. Inbound
terminal dues rates for new target and transition countries will also increase by an
average of 6 percent16 and 2.8 percent each year, respectively. Foreign countries’

15
   The 13 percent increase in terminal dues is calculated based on per kilogram and per item rates and items per
kilogram for mail flow between target countries.
16
   The 6 percent increase is for terminal dues cap rates for mail flow to, from, and between new target countries.

                                                          5
International Terminal Dues                                                                           MS-WP-14-002



terminal dues rates increases also mean the U.S. will pay higher terminal dues to target
countries for its outbound mail, averaging a 3 percent increase each year from 2014
through 2017. While these recent changes will likely increase net revenue for the Postal
Service, they will take more than 4 years to fully implemented.

Figure 1 compares the UPU terminal dues floor and cap rates as a result of recent UPU
congressional revisions. U.S. terminal dues rates were at the floor level during the prior
cycle; however, these rates will move closer to the cap rates by 2017.

       Figure 1: Terminal Dues Rates for Mail Flows between Target Countries




Source: UPU documentation.
Note: The terminal dues rates in this graph are calculated based on items per kilogram of 12.16 and the currency
exchange rate as of December 30, 2013.

Other changes approved during the most recent UPU Congress will result in certain
countries moving from the transition system to the target system. Countries that do not
agree with the migration schedule will need to follow the UPU appeals process. This
migration could ultimately provide increased revenue for the Postal Service as these
countries begin paying the higher target system terminal dues rates.

However, migration to the target system will take years to fully implement. For example,
some transition countries (such as China and Russia) are scheduled to move from the
transition system to the target system in 2016. Other countries that have a major impact
on the global economy (such as India and the Philippines) will continue to be identified
as transition countries, paying the lowest UPU rates, especially for lightweight mail
items.

                                                         6
International Terminal Dues                                                     MS-WP-14-002




Conclusion

In an effort to make terminal dues more equitable and cost-effective for all countries, the
UPU member countries agreed to significant changes in September 2012. As a result,
both U.S. inbound and outbound terminal dues rates will increase an average of 13 and
3 percent, respectively, each year from 2014 through 2017. The overall impact of these
increases for both inbound and outbound international mail will be about $               in
additional revenue for the Postal Service over the next 4 years. Therefore, the Postal
Service should move closer to cost coverage for inbound international mail by 2017 and
continue to provide a positive contribution to institutional costs for outbound
international mail.




                                            7
International Terminal Dues                                                                 MS-WP-14-002



                                                       Appendix A: Country Classification List

                                                                 Countries and Territories
         Group 1.1                    Group 1.2                 Group 2                  Group 3                    Group 4                    Group 5
 Australia                    Anguilla                 Antigua and Barbuda       Argentina                 Albania                    Afghanistan
 Austria                      Aruba                    Bahrain (Kingdom)         Belarus                   Algeria                    Angola
 Belgium                      Bahamas                  Barbados                  Bosnia and                Armenia                    Bangladesh
 Canada                       Bermuda                  Brunei Darussalam         Herzegovina               Ascension                  Benin
 Denmark                      British Virgin Islands   Cook Islands              Botswana                  Azerbaijan                 Bhutan
 Falkland Islands             Cayman Islands           Croatia                   Brazil                    Belize                     Burkina Faso
 Faroe Islands                Hong Kong                Curacao                   Bulgaria (Republic)       Bolivia                    Burundi
 Finland                      Kuwait                   Cyprus                    Chile                     Cameroon                   Cambodia
 France                       Qatar                    Czech Republic            China (People's           Cape Verde                 Central African Republic
 French Polynesia             Singapore                Dominica                  Republic)                 Colombia                   Chad
 Germany                      Slovenia                 Estonia                   Costa Rica                Congo Republic             Comoros
 Gibraltar                    Turks and Caicos         Grenada                   Cuba                      Cote d'lvoire (Republic)   Congo (Democratic
 Greece                       Islands                  Hungary                   Fiji                      Korea (Democratic          Republic)
 Greenland                    United Arab Emirates     Korea (Republic)          Gabon                     People's Republic)         Djibouti
 Guernsey                                              Macao, China              Jamaica                   Dominican Republic         Equatorial Guinea
 Iceland                                               Malta                     Kazakhstan                Ecuador                    Eritrea
 Ireland                                               Montserrat                Latvia                    Egypt                      Ethiopia
 Isle of Man                                           Poland                    Lebanon                   El Salvador                Gambia
 Israel                                                St. Kitts and Nevis       Libya                     Georgia                    Guinea
 Italy                                                 Saudi Arabia              Lithuania                 Ghana                      Guinea-Bissau
 Japan                                                 Saint Martin              Malaysia                  Guatemala                  Haiti
 Jersey                                                Slovakia                  Mauritius                 Guyana                     Kiribati
 Liechtenstein                                         Trinidad and Tobago       Mexico                    Honduras (Republic)        Lao (People’s
 Luxembourg                                                                      Montenegro                India                      Democratic Republic)
 Monaco                                                                          Nauru                     Indonesia                  Lesotho
 Netherlands                                                                     Niue                      Iran (Islamic Republic)    Liberia
 New Caledonia                                                                   Oman                      Iraq                       Madagascar
 New Zealand                                                                     Panama (Republic)         Jordan                     Malawi
 Norfolk Island                                                                  Romania                   Kenya                      Mali
 Norway                                                                          Russian Federation        Kyrgyzstan                 Mauritania
 Pitcairn Islands                                                                Saint Lucia               Maldives                   Mozambique
 Portugal                                                                        Saint Vincent and the     Moldova                    Myanmar
 San Marino                                                                      Grenadines                Mongolia                   Nepal
 Spain                                                                           Serbia                    Morocco                    Niger
 Sweden                                                                          Seychelles                Namibia                    Palestine
                                                                             8
International Terminal Dues                                            MS-WP-14-002



                                             Countries and Territories
        Group 1.1             Group 1.2   Group 2                    Group 3                   Group 4           Group 5
 Switzerland                                                 South Africa             Nicaragua          Rwanda
 Tristan Da Cunha                                            Suriname                 Nigeria            Sao Tome and Principe
 United Kingdom                                              Thailand                 Pakistan           Senegal
 U.S.                                                        Former Yugoslav          Papua New Guinea   Sierra Leone
 Vatican                                                     Republic of Macedonia    Paraguay           Solomon Islands
 Wallis and Futuna                                           Turkey                   Peru               Somalia
 Islands                                                     Ukraine                  Philippines        South Sudan
                                                             Uruguay                  Sri Lanka          Sudan
                                                             Venezuela (Bolivarian    St. Helena         Tanzania (United
                                                             Republic)                Swaziland          Republic)
                                                                                      Syrian Arab Rep.   Timor-Leste
                                                                                      Tajikistan         (Democratic Republic)
                                                                                      Tokelau            Togo
                                                                                      Tonga              Tuvalu
                                                                                      Tunisia            Uganda
                                                                                      Turkmenistan       Vanuatu
                                                                                      Samoa              Western Samoa
                                                                                      Uzbekistan         Yemen
                                                                                      Vietnam            Zambia
                                                                                      Zimbabwe
Source: UPU.




                                                         9
